Before the Committee on Commerce, Science and
Transportation
Subcommittee on Aviation
United States Senate


For Release on Delivery
Expected at
2:30 p.m. EST
                          Aviation Security Costs,
                          Transportation Security
Wednesday
February 5, 2003
CC-2003-066

                          Administration




                          Statement of
                          The Honorable Kenneth M. Mead
                          Inspector General
                          U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee:

I appreciate the opportunity to testify on the Transportation Security
Administration’s (TSA) efforts to meet the legislative deadlines set forth in the
Aviation and Transportation Security Act (Act), the costs associated with meeting
those requirements, and controlling TSA costs, especially of contracts. Most of
TSA’s expenditures to date are attributed to securing the Nation’s aviation system,
and this will be the focus of our testimony today.

Deadlines in the Act—for federalizing the screener workforce and the screening of
all checked baggage—were the key cost drivers over the past year, and will be for
some time to come. Over the past 14 months, TSA and the Department of
Transportation (DOT) moved forward in standing-up an entirely new organization.
Most noteworthy, TSA met the challenge to hire and train a federalized workforce
to screen all passengers and their carry-on baggage by November 19, 2002; and,
for the most part, to deploy the necessary equipment and federalized workforce to
meet the December 31, 2002 deadline to screen all checked baggage. At the same
time, TSA significantly expanded the Federal Air Marshals program with more
flights being guarded now than any time in history. It is important to note that
these accomplishments were occurring in an environment where there was no
preexisting infrastructure for overseeing contracts or managing human resources.

Security Costs Are Much Greater Than Anticipated

We testified in April 2002 that the cost of good security would be substantially
greater than most had anticipated. Before September 11, 2001, there were
approximately 28,000 screeners at the Nation’s airports, and the Air Transport
Association estimated in August 2001 that the annual security cost for the airline
industry totaled about $1 billion. These costs covered activities such as screening,
training, and acquisition of security equipment. Today, TSA employs nearly
62,000 screeners at the Nation’s airports, (of whom 28,000 are “temporary”), and
capital and operating costs for fiscal year (FY) 2002 alone exceeded $5.8 billion.

TSA requested $5.3 billion for FY 2003, and the Department of Homeland
Security (DHS) requested $4.8 billion just for aviation security in FY 2004. This
is projected against FYs 2003 and 2004 revenues from the passenger security fee1
of about $1.7 billion annually, along with yearly contributions of $300 million
from the airlines. Resolving the gap of about $3 billion each year will require a
large infusion of cash from the General Fund. This comes at a time when the
General Fund is already strained to pay for vastly increased fiscal needs
1
  The passenger security fee is calculated by multiplying the number of enplanements on a ticket by $2.50.
A passenger would pay $5.00 on a non-stop roundtrip ticket and $10.00 if there was a connection on the
outbound and return trips.


                                                    1
throughout the Federal Government. Also, these requirements do not account for
the additional hundreds of millions of dollars that air carriers and airports will pay
for aviation security, such as securing cockpit doors, ensuring the security of
catering operations, conducting employee background investigations and criminal
history checks, and strengthening access controls to secure areas of the airport.
These costs are hitting at the very time much of the industry is in extreme financial
distress.

Cost Controls Must Be a Priority for TSA

We all recognize that the mission of ensuring that our transportation systems are
secure is a tremendous task. Nevertheless, the overriding goal for TSA must be to
provide tight and effective security in a manner that avoids waste and ensures
cost-effective use of taxpayer dollars. A key cost control issue for TSA is
effective contract oversight and managing human resources, and in our work we
have highlighted this as a high priority item for TSA as it transitions to DHS.

Because the agency was built from the ground this past year, there was little
existing infrastructure in place and TSA had to rely extensively on contractors to
support its mission. This lack of infrastructure resulted in a lack of management
oversight contributing to tremendous growth in contract costs. For example,
one contract with initial cost estimates of $104 million grew to an estimated
$700 million. TSA must have the infrastructure to monitor and control its
operating costs, especially given the large number and dollar volume of contracts
it is managing, about $8.5 billion at the end of calendar year 2002 and continuing
to grow.

As we tracked TSA’s progress in meeting the deadlines for the deployment of
screeners and explosives detection equipment, we identified weaknesses in the
controls over the interim contracts with screener companies, the contract for hiring
the screener workforce, and the contract for deployment of explosives detection
equipment. As we recommended, TSA hired the Defense Contract Audit Agency
(DCAA) to audit its major contracts. The DCAA audited costs on the screener
contracts and questioned over $124 million of almost $620 million audited. A
TSA review of an NCS Pearson subcontractor with $18 million in expenses,
determined that between $6 million and $9 million of these expenses appear to be
attributed to wasteful and abusive spending practices. We know there are
questions regarding the funding of the Boeing contract. We have been asked to
look into this, and the use of $500 million from the supplemental appropriation,
and we are currently working to answer these questions.




                                          2
TSA Needs to Capitalize on Economies of Scale

TSA, Customs Service (Customs) and Immigration and Naturalization Service
(INS) will be together in one DHS Directorate providing a unique opportunity to
capitalize on economies of scale. There are at least three different levels where
savings can be realized through economies of scale: (1) centralized administrative
services, (2) use of airport space, and (3) use of law enforcement personnel.

• A key cost savings is whether TSA will have its own separate staff and
  bureaucracy for general counsel, contracting, budgeting, human resources, and
  internal affairs or whether the creation of DHS will offer centralized services
  and control costs in these areas. We feel an early decision by DHS as to what
  central services will be provided to TSA could reduce staff requirements and
  establish effective cost controls for TSA.

• At individual airports, TSA should explore ways to consolidate its airport
  space requirements for functions like office space, break rooms, training
  facilities, and holding cells with other organizations that are merging into
  DHS. Some of these organizations, such as Customs and INS, already have
  space at airports, and consolidating these facilities will save resources.

• With the tremendous tasks facing TSA, it is important that the agency avoid
  extending itself beyond the basic tenets of the Act’s requirements. For
  example, we previously testified that TSA needed to avoid mission creep.
  While the law is only explicit about a Federal law enforcement presence at
  checkpoints, TSA was considering expanding its law enforcement presence at
  the airports. TSA later abandoned these plans. However, TSA is now
  considering extending Federal Air Marshals’ duties to conducting surveillance
  and patrolling at airports. The Federal Air Marshals were set up to guard
  flights. Before extending their mission, we hope TSA carefully considers the
  budgetary and staffing implications, and thoroughly vets this issue with airport
  authorities and Federal and local law enforcement agencies.

Aviation Security Is by No Means at an End-State—Most Heavy Lifting and
Costs Lie Ahead

TSA made significant progress in meeting the Act’s deadlines, but TSA’s work is
not done and it is far from an “end state” for securing the Nation’s aviation
system. The requirement that all checked bags undergo explosives detection
equipment screening by December 31, 2002, carried a large price tag, estimated at
$1.6 billion to date. However, the heavy lifting and costs still lie ahead. This
year, TSA will need to complete its “interim solution” for deploying explosives



                                        3
detection equipment to the remaining airports where alternate screening methods
are being employed today.

At the same time, TSA needs to move forward with integrating explosives
detection systems (EDS) into baggage handling systems at the largest airports.
Some estimates put the cost of integrating the equipment upwards of $3 billion.
For example, we have seen comprehensive plans for Boston Logan and
Dallas/Fort Worth International Airports with estimates for integrating EDS into
their baggage handling systems at $146 million and $193 million, respectively.
How much it will ultimately cost depends on the type of structural changes
required in the baggage make-up area, and the efficiency and reliability of the
equipment. At this point, it is unclear how long this integration will take, how
much this will cost, and who will have to pay for it.

What is clear is that integrating EDS into the baggage systems at the largest
airports will not be the end state. The need to deploy better, more effective
equipment to meet current and future threats will be an ongoing need for years to
come. We must continue to invest in research and development for cheaper,
faster, and more effective equipment for screening passengers, their carry-on and
checked baggage, and air cargo. However, we must be responsible in how we
spend our research and development funds.

Congress should look for synergy in the new DHS research and development
programs. A shotgun approach for funding deployment of a technology before its
time will not be efficient. The pressures from vendors to purchase and deploy
their products will be significant, and TSA will require the support of Congress to
make prudent spending decisions on new and proposed security technologies.
Efforts should be focused on the development of technology that can improve
security in multiple areas of homeland security, such as technology to screen
containers at ports or borders and air cargo.

Decisions Need to Be Made on How to Pay For Security

A major issue on the horizon is funding the next phase of EDS integration. Thus
far, nearly all EDS equipment has been lobby-installed. TSA’s planned next step
(integrating the EDS equipment into airport baggage systems) is by far the most
costly aspect of full implementation. The task will not be to simply move the
machines from lobbies to baggage handling facilities but will require major
facility modifications.

A key question is who will pay for those costs and how. The difference between
TSA expenses and current aviation security revenues from taxes and airline fees
cannot be covered by cost savings alone. The means for bridging this gap needs to


                                        4
be decided—to what extent it will be accomplished through the General Fund of
the Treasury or aviation system users, which ultimately means passengers,
airlines, and airports.

We urge great caution before adding additional fees or taxes for air travel.
Consumers already pay a significant amount in aviation taxes and fees. For
example, a $100 non-stop round trip ticket includes approximately
$26 (26 percent) in taxes and fees.          Put differently, the airlines receive
approximately $74 and the government2 gets $26. A $200 single-connection
round trip ticket includes approximately $51 (26 percent) in taxes and fees. Here
the airline gets approximately $149 and the government gets $51. The current
financial state of the airline industry will make it difficult for air carriers or their
passengers to pay the billions of dollars required each year to cover TSA’s
expenses.

While the current Airport Improvement Program (AIP) has provided some funding
in the past for aviation security, we urge caution in tapping this program until we
have a firm handle on airport safety and capacity requirements. In FY 2002,
airports used over $561 million of AIP funds for security-related projects. In
contrast only about $56 million in AIP funds were used for security in FY 2001.
Continuing to use a significant portion of AIP funds on security projects will have
an impact on airports’ abilities to fund capacity projects.

We also need to remember the conditions of the summer of 2000—with its delays,
cancellations, and near system gridlock. We need to make sure capacity issues are
addressed now, while there is still time to avoid a repeat of the summer of 2000.

The most likely options for meeting TSA’s financial requirements over and above
the existing revenues are for the General Fund to continue to pay a large portion of
security costs, along with strong contract oversight and cost controls. While we
do not see much of a dispute that aviation security is a matter of national security,
Congress will ultimately have to make a decision about how these costs will be
paid for and the proper mix between airlines, airports, passengers, and the General
Fund. I should also underscore, Mr. Chairman, that while the debate today is on
aviation security, you will also face these same questions regarding other modes of
transportation—rail, transit, trucking, pipelines, and maritime.




2
    In this case, government includes both the Federal Government and airport authorities.


                                                      5
Capital Costs: TSA Needs to Build Efficiencies Into Existing Deployment
Efforts and Improve Performance of Existing and Future Technologies

Everyone recognizes that the challenge TSA faced in meeting the statutory
December 31st deadline to screen 100 percent of checked baggage was both
unprecedented and monumental. An effort of this magnitude—an estimated
1,100 explosives detection systems (EDS) and 5,000 explosives trace detection
(trace) machines deployed—was one that had never been undertaken on a scale of
this magnitude, with very little experience to draw on, and even less time to make
judgments on what might be more cost-effective.

TSA now faces significant challenges in controlling its capital costs, particularly
in terms of moving from the system that now exists to screen all checked baggage
toward a solution that moves the screening operations from airport lobbies into the
baggage handling systems at the Nation’s largest airports. TSA needs to ensure
that equipment is properly integrated into airport baggage systems, and that it can
be relied on to perform as expected. At the same time, TSA needs to begin
fulfilling its additional equipment needs, completing the integration of EDS into
airport baggage handling systems, upgrading equipment at passenger screening
checkpoints, prototyping new systems for screening checked baggage, and
developing its future equipment needs for screening cargo and mail.

Moving Toward an In-Line Solution: Checked Baggage Screening. Although
TSA made every effort to meet the December 31st deadline to screen all checked
baggage using explosives detection equipment, deployment of the equipment was
not completed at all the Nation’s commercial airports. At airports where
deployment was not completed, TSA exercises its authority to implement alternate
screening methods. These alternate methods are short-term, temporary solutions
for screening checked baggage as TSA continues with its deployment efforts.

To meet the deadline, TSA executed a two-phase deployment approach. In the
initial phase for screening all checked baggage, some airports use EDS, with trace
machines used only for resolving alarms; others use trace machines exclusively;
and some use a mix of EDS and trace machines.

In phase two, at a future date that is not yet firm, TSA will move the
EDS machines into baggage systems at the largest airports. It is unclear how
much this will cost and who will have to pay for it. While integrating EDS
machines into airport baggage handling systems takes substantially more up-front
capital, future cost savings could be realized with a reduction in annual labor
costs. Lobby-installed EDS machines and trace detection machines require twice
the number of screeners compared to integrated EDS machines.



                                        6
The ultimate funding needs of TSA will be most affected by who assumes the
costs of integrating the equipment—airports or TSA—and how it will be paid for.
Some estimates put the costs of integrating the equipment upwards of $3 billion,
depending on whose estimates are the most reliable with respect to the nature and
type of structural changes required to install EDS machines. Most estimates we
have seen are based on a “rough order of magnitude” and are more than likely
subject to change. However, we have seen comprehensive plans for both Boston
Logan and Dallas/Fort Worth International Airports with estimates for integrating
EDS into their baggage handling systems at $146 million and $193 million,
respectively.

In an effort to provide some relief to the airport community for costs associated
with EDS and trace machine installations, Congress, in TSA’s FY 2002
supplemental appropriation, provided a $738 million set-aside for “physical
modification of commercial service airports for the purpose of installing EDS and
trace machines.” There now appears to be some question as to whether the
set-aside was spent for its intended purpose. In a joint letter to Secretary Mineta,
dated January 30, 2003, the American Association of Airport Executives and the
Airports Council International reported they had learned that $500 million of the
$738 million was shifted to fund the Boeing contract.

Boeing was tasked to (1) complete airport site assessments at over 400 airports;
(2) submit to TSA a proposal on the right mix of equipment for each airport and
where the equipment will be installed; (3) modify facilities to accommodate the
equipment; (4) install and make the equipment operational; (5) maintain the
equipment; and (6) train a screening workforce. Boeing’s contract does not
include the purchase of explosives detection equipment, which will be funded
separately by TSA.

TSA agrees that $500 million of the $738 million was used to fund the Boeing
contract and views using the $500 million toward Boeing’s efforts as appropriate.
We have been requested to look into this, and the use of $500 million from the
supplemental appropriation, and we are currently working to answer these
questions.

Fulfilling Near-Term and Future Equipment Needs. Over the next 2 to 5 years,
TSA can be expected to purchase additional equipment for completing the
integration of EDS into airport baggage handling systems, upgraded equipment
needs at passenger screening checkpoints, and prototyping new systems for
screening checked baggage. Over this period, TSA has opportunities to refine its
deployment and procurement strategies in order to better identify its equipment
needs.


                                         7
The requirement that all checked bags undergo explosives detection equipment
screening by December 31, 2002, carried a large price tag, estimated at a cost of
$1.6 billion. This does not include the cost of additional EDS machines needed
for integrated systems to replace explosives trace detection devices currently used
for screening checked baggage. Also, some models of EDS currently deployed are
not suited for in-line systems as their capacity rates make them better suited as
lobby-installed or stand-alone machines. Modeling of airline passenger and
baggage flows also needs to be as precise as possible—factoring in future capacity
demands—so that machines purchased best meet capacity demands.

Although equipment used in screening passengers and their carry-on bags has
been in place at airports for over 2 decades, little has changed in the technology
used.    Existing x-ray machines for screening carry-on baggage do not
automatically detect for explosives. Congress provided TSA with $23 million for
the deployment of enhanced walk-through metal detectors. TSA has spent about
$12.6 million to purchase and install approximately 1,345 detectors.

TSA also has an ongoing pilot program to field test explosives trace detection
portals for screening passengers. In the immediate future (less than 1 year), this
technology could prove to be the best technology available for screening
passengers for both concealed metallic threat objects and bombs. We should
know in less than a year whether this technology is best suited for screening
passengers.

An area that has received little attention, to date, is the actual screening of cargo
using EDS. This will be an area that TSA needs to move forward on now that the
Aviation and Transportation Security Act requires the screening of all cargo. This
requirement was not tied to any specific deadline, unlike the requirement to screen
all checked baggage using explosives detection systems by December 31, 2002.

The capital costs to deploy a certified machine to screen cargo, if one becomes
available, could far exceed the costs for deploying EDS to screen checked
baggage. Machines that are available for screening cargo, albeit not certified by
TSA, cost as much as $10 million, compared to less than $1 million for an EDS.
Machines for screening cargo are also bulky and costly to install. For the time
being, there are not many attractive emerging technology options available for
screening cargo. Almost any credible scenario involves breaking palletized or
other bulk shipped cargo into its smaller component parts for screening.

Research and Development Efforts. Over the years, the Government has
provided funding for developing prototypes; establishing pilot programs;
furthering research, engineering, and development; and purchasing and deploying


                                         8
new aviation security technologies. As we move to improve homeland security,
including aviation security, it is critical that security equipment also continue to be
improved to face new and evolving threats.

To the greatest extent practicable, TSA should test and evaluate promising
products operationally, using pilot programs at a variety of different size airports
in several geographic and demographic areas, before committing large sums of
money to full-rate-of-production contracts. This is important because pilot
programs offer an opportunity to demonstrate clearly how the product will
perform in its intended environment when used by typical operators.

As TSA moves to the Department of Homeland Security, it should also look at
technology being developed for other homeland security areas as a potential area
for new transportation security technology. Technology is another area where
economies of scale could be realized, and Congress should look for synergy in the
new Department’s research and development programs. For example, technology
developed to screen cargo containers on the border or shipping containers may
one day be refined to a level where it could be used to screen air cargo.

Operating Costs: Tightening the Reins on TSA Recurring Costs

While deadlines were without a doubt driving factors behind TSA’s efforts thus
far, TSA must now devote significant efforts towards building an effective
infrastructure for controlling costs. The overriding goal for TSA must be to
provide tight and effective security that ensures cost-effective use of taxpayer
dollars. TSA faces significant challenges in controlling its operating costs,
particularly in terms of overseeing contracts and controlling workforce costs.

Contract Oversight. TSA initially (and understandably) focused its resources on
hiring and training a screening workforce and deploying sufficient explosives
detection equipment. This was an enormous undertaking requiring billions of
dollars by an organization building from the ground up while facing tight statutory
deadlines and the need to move out expeditiously. However, the lack of pre-
existing infrastructure for controlling costs resulted in a lack of management
oversight contributing to tremendous growth in contract costs.

For example, one contract with initial cost estimates of $104 million grew to an
estimated $700 million. TSA must build the infrastructure needed to monitor and
control its operating costs, especially given the large number and dollar volume of
contracts it is managing (about $8.5 billion at the end of calendar year 2002 and
continuing to grow).




                                          9
As we noted in the DOT Top Management Challenges report issued on
January 21, 2003, TSA faces significant challenges in providing effective security
in a way that avoids waste of taxpayer dollars. During the early months of TSA’s
formation, the agency relied on the expertise of other DOT contracting offices
until it hired staff. As we tracked TSA’s progress in meeting the deadlines for the
deployment of screeners and explosives detection equipment, we identified
weakness in the controls over the interim contracts with screener companies, the
contract for hiring the screener workforce, and the contract for deployment of
explosives detection equipment. Because of the lack of infrastructure, we
recommended TSA hire DCAA to audit costs on the screener contracts. TSA
adopted our recommendations, and DCAA has so far questioned over $124 million
of almost $620 million in costs audited.

• Interim Contracts With Screener Companies. As required by the Act, TSA
  assumed responsibility for passenger screening at all U.S. commercial airports
  on February 17, 2002. TSA contracted with 74 incumbent screener companies
  to continue the day-to-day operations until a Federal screener workforce was
  hired, trained, and deployed. TSA obligated over $1 billion for the interim
  screener contracts.

   We audited TSA’s oversight of the screener contracts and found that TSA still
   had not negotiated final rates for 61 of 74 contractors, including the
   13 contractors that accounted for 93 percent of the $1 billion obligated for the
   contracts. We also found that six contractors charged TSA substantially higher
   hourly billing rates than they charged air carriers for similar services. While
   we recognize some cost increases were reasonable given the need to keep
   sufficient staff to run the checkpoints, many costs appeared excessive.
   Comparing hourly rates charged air carriers to the rates charged TSA, and
   using the same work hours through November 19, 2002, we estimate that the
   six contractors would charge TSA about $305 million more than they would
   have charged air carriers.

   TSA identified several factors that contributed to the problems experienced,
   including the number of agreements, the screening companies’ lack of
   familiarity with Federal contracts, and lack of operational staff at the airports.
   In August, TSA reached agreements with the Defense Contract Management
   Agency (DCMA) to administer, and DCAA to audit, the 74 screener contracts.

   Much has been done by TSA, through the assistance of DCMA and DCAA, to
   obtain pricing and audit costs, to definitize the letter contracts, and to ensure
   that final payments to the contractors represented actual costs incurred. To
   date, cost and pricing data have been obtained from 9 of the 13 larger
   contractors and proposal audits have been completed for 8 of the 9. For the


                                        10
   eight completed proposal audits, the proposals totaled $340 million, and
   DCAA questioned nearly $80 million of that amount. Voucher audits have
   been completed for two of the other four large contractors, and DCAA
   questioned more than $6 million of $127 million audited. This leaves three of
   the larger contractors where the audits were not completed, and DCAA has
   thus far questioned another $38 million.

   TSA has detailed the corrective action it has taken, including directing DCMA
   to withhold contractor payments until the DCAA audits are completed and the
   final hourly billing rates have been negotiated. TSA indicated that it is
   currently holding over $90 million in invoice payments to the largest
   contractors. TSA expects all outstanding issues regarding the screening
   company contracts to be closed by late April 2003.

• Contract for Hiring the Screener Workforce. On February 27, 2002, TSA
  contracted for NCS Pearson to recruit, assess, and hire the nationwide screener
  workforce, and to provide human resources support for all TSA employees.
  The contract was a labor and materials cost contract that obligated TSA to
  reimburse NCS Pearson for the actual costs of services provided with no
  contractual requirements or incentives to control and contain expenses. During
  the period of the contract, from February to December 2002, the overall cost of
  the contract grew from $104 million to an estimated cost of $700 million.

   During the contract period, TSA personnel focused on the hiring and
   deployment of screeners, but provided limited oversight for the management of
   the contract expenses. Although obligations are normally made prior to
   expenses being incurred, NCS Pearson incurred over $135 million of expenses
   during July and August 2002, but TSA did not obligate funds to cover these
   expenses until September. In addition, it was not until November 4, 2002, that
   TSA obligated sufficient funds to cover all the costs incurred in September and
   October, which exceeded $160 million in each of those 2 months.

   By September 2002, TSA was concerned by the rising cost of the contract, and
   in October 2002, it initiated a preliminary review of NCS Pearson’s financial
   management of subcontractor expenses. TSA reviewed one subcontractor with
   $18 million of expenses charged to the contract. TSA determined that between
   $6 million and $9 million of the expenses appeared to be attributed to wasteful
   and abusive spending practices. TSA attributes this problem to “the complete
   breakdown of management controls at NCS [Pearson]” and failure of the
   subcontractor to exercise reasonable care in expenditures for equipment and
   warranty, and for employee travel. To its credit, TSA hired DCAA to audit
   expenses claimed under the NCS Pearson contract.



                                       11
   TSA has contracted with two different companies, one for hiring and one for
   human resources support, to provide these services beginning in January 2003.
   Some personnel files from NCS Pearson did not comply with Office of
   Personnel Management requirements. Therefore, TSA directed the two new
   contractors to review all personnel files and data records provided by NCS
   Pearson and to separately track costs for correcting any identified errors or
   deficiencies in the files. TSA intends to charge NCS Pearson back for the
   costs needed to correct the identified deficiencies. However, TSA also needs
   to capitalize on the lessons learned from the NCS Pearson contract and closely
   monitor the new contractors’ performance and costs.

• Contract for Deploying, Improving and Maintaining Explosives Detection
  Equipment. On June 7, 2002, TSA entered into a $508 million cost plus award
  fee type contract with Boeing Service Company to deploy EDS and ETD
  machines to the Nation’s airports and to train the checked baggage screener
  workforce needed to operate the equipment. The period of performance for
  this contract was to expire on December 31, 2002. However, upon realizing
  that not all airports would be completed by the deadline, TSA issued a contract
  modification on December 23, 2002, to extend the period of performance to
  December 31, 2003.

   To date, TSA has funded $542 million on the contract exclusive of change
   orders. This amount is likely to increase substantially as Boeing submits
   change orders to TSA for negotiation. Multiple change orders for an
   individual airport can be submitted and may be substantial. For example, TSA
   has approved seven of the eight change orders submitted by Boeing for
   Portland International Airport. These seven change orders total approximately
   $402,000. To date, systemwide change orders totaling $13.1 million have
   been submitted to TSA.

   TSA must provide continuous oversight and tight controls over the Boeing
   contract and closely monitor individual change orders and their cumulative
   effect on total contract costs. The agency has proposed engaging DCAA to
   audit the Boeing contract, but has yet to act on this. By doing so, this will
   serve as a means of ensuring that Boeing’s cost and pricing data are accurate
   and allowable under the terms of the contract.

   Another area of concern is that of continuous improvement for the EDS
   machines. Both EDS manufacturers are contractually obligated to continue
   developing a product improvement program that decreases the false alarm rates
   experienced by their already deployed machines. At the same time, Boeing is
   also contractually obligated to work with TSA and the EDS manufacturers to
   develop a solution to improve the false alarm rates. It is unclear to us how


                                       12
   Boeing’s work regarding continuous improvement differs from that of the EDS
   manufacturers. In our opinion, there is a great potential for duplication of
   effort.  To date, Boeing has been paid $7.6 million for continuous
   improvement efforts.

   TSA needs to bring clarity to the scope of this contract. Originally, the EDS
   manufacturers were responsible for performing maintenance on the equipment
   during the warranty period; however, maintenance responsibility was also
   included in the Boeing contract. Although TSA has recently exercised its
   option for Boeing to provide maintenance service, the EDS manufacturers and
   Boeing have yet to resolve the scope of the services to be provided. This
   becomes extremely important as the warranty period for the equipment expires.

Controlling Workforce Costs and Capitalizing on Economies of Scale. In
previous testimonies, we have reported areas where TSA can improve its cost
controls. For example, in June 2002, we expressed concerns regarding the number
of positions being created with salaries in excess of $100,000. While we have
seen improvements in this area, there are other opportunities that need to be
further addressed by TSA such as better utilizing part-time positions and
capitalizing on economies of scale in the organization of the Department of
Homeland Security.
• Controlling Workforce Costs. As part of TSA’s FY 2002 supplemental
  appropriation, Congress capped TSA’s hiring at 45,000 full-time permanent
  positions. However, as of December 31, 2002, TSA had a total workforce of
  about 66,000 employees.        Of these 66,000 employees, approximately
  28,000 were hired under temporary appointments and, according to TSA, are
  not subject to the congressionally mandated staffing cap.
   We have previously testified on the need for TSA to control its workforce costs
   by making full use of part-time positions to better match screener staffing to
   passenger flows at many airports. In June 2002, TSA announced that
   20 percent of its total screener workforce would be part-time and seasonal
   positions. However, as of December 31, 2002, only 1,225 (approximately
   2 percent) of TSA’s total screener workforce were part-time employees.

• Capitalizing on Economies of Scale. The new Department of Homeland
  Security has significant implications for TSA in terms of activities TSA
  anticipated performing and staffing up for. These include intelligence
  gathering and analysis, criminal investigations, administrative support, and
  space requirements at airports. The new Department offers economies of scale
  in many areas including general counsel, budget, contracting, internal affairs,
  and human resources.


                                       13
   We previously testified on the need for TSA to capitalize on the economies of
   scale. Specifically, in April 2002, we testified on TSA’s plans to assume
   numerous law enforcement responsibilities that seemed to us to be beyond the
   basic tenets of the Act. Although TSA subsequently abandoned that plan, we
   have been advised by TSA that duties of Federal Air Marshals may be
   extended to include surveillance and patrolling at airports. With the
   tremendous tasks facing TSA, it is important that the agency avoid extending
   itself beyond the basic tenets of the Act’s requirements.

   There are also opportunities for economies of scale in terms of airport space.
   The deployment of 62,000 screeners, reconfiguration of screening checkpoints,
   and installation of explosives detection equipment, require considerable use of
   the limited space available at airports. Now that this workforce is in place,
   additional needs for administrative and support space are being identified. For
   example, the Federal Security Directors must ensure an adequate sized training
   room is established at each airport to support continuing, computer-based
   training for screeners.

   TSA should explore the consolidation of its administrative, training, and
   support space with the administrative space now used by other agencies that
   will be part of DHS, such as the Customs and the INS, at the major
   international airports. The impending reorganization of these agencies under
   the same Directorate within DHS provides a unique opportunity for the
   consolidation of administrative space and possible administrative support
   activities.

• Leasing Vehicles. The Federal Air Marshals program, as with any law
  enforcement function, has a need to lease Government owned vehicles (GOV).
  However, the decision on how many and what type of vehicles to lease was not
  well thought out. The decision that each field office would get 12 GOVs and
  the majority of the GOVs would be Sport Utility Vehicles and Passenger Vans
  was costly. Annual leasing rates for the current FAM fleet are about
  $1 million. TSA could save about $200,000 a year if the FAM program leased
  all midsized sedans instead of a mix of Sport Utility Vehicles and Passenger
  Vans.

   This savings does not include the cost for the mileage rate charged per vehicle.
   Mileage rates for SUVs are 39 percent higher than the mileage rates charged
   for midsized sedans. If an SUV is driven 12,000 miles per year compared to
   the same mileage for a midsized sedan, the annual mileage expense for the
   SUV would be about $1,000 higher than the mileage expense for a midsized
   sedan. Additional annual cost savings could be realized if TSA reduced the


                                        14
   number of vehicles leased by determining the actual need for GOVs by field
   office location.

Funding: Decisions Need to be Made Over Who Will Pay for What and in
What Amounts.

It is now very clear that the cost of good security is significant. In November
2001, when the Aviation and Transportation Security Act passed, the only
financial data available were “best guesses” - that security costs for airlines were
somewhere around $1 billion annually, and that there were between 28,000 and
30,000 screeners. Today, TSA employs nearly 62,000 screeners (of whom
28,000 are “temporary”) and capital and operating costs for FY 2002 alone
exceeded $5.8 billion.

It is also now very clear that the revenues established by the Act will pay for only
a fraction of TSA’s costs. The means for bridging this gap need to be defined—
whether it is accomplished through revenue from fees, airline contributions,
airport funds, and/or direct appropriations from the General Fund. Clearly, there
are difficult decisions to be made over who will pay for what, in what amount, and
from what funding source.

Revenues Created by the Aviation and Transportation Security Act Cover Only a
Fraction of TSA’s Costs. Although the Act created several new revenue sources
to pay for the costs of additional security, it is now evident that the passenger
security fee will pay for only a fraction of TSA’s costs. For example, current
estimates are that the passenger security fee will generate only about $1.66 billion
in FY 2003 and $1.74 billion in FY 2004. To meet TSA’s FY 2003 budget of
$5.3 billion using only proceeds from the security fee, we estimate the fee would
have to be raised from the current $2.50 per flight segment to almost $8 per flight
segment. This means that, on a round trip flight with one connection each way, a
passenger would pay over $32 in security fees alone.

Consumers already pay a significant amount in aviation taxes and fees. For
example, according to the Air Transport Association, a $100 non-stop round trip
ticket includes approximately $26 (26 percent) in taxes and fees. A $200 single-
connection round trip ticket includes approximately $51 (26 percent) in taxes and
fees.

The Act also allowed TSA to impose an aviation security fee on air carriers based
on the amount each air carrier paid for screening passengers and property in
calendar year (CY) 2000. In August 2001, prior to the passage of the Act, the Air
Transport Association estimated that the annual security requirements for the
airline industry totaled about $1 billion for activities such as screening, training,


                                         15
and acquisition of security equipment. Based on further industry data on security
costs, TSA projected collections of about $750 million annually from air carriers.
However, based on the certified submissions by air carriers for CY 2000, TSA
now expects to only collect about $300 million annually for this fee. This leaves a
difference of $450 million annually that will not be paid by air carriers and will
have a significant impact on TSA’s funding requirements.

TSA had proposed that Congress legislatively establish the fee at a flat rate of
$750 million per year, which TSA proposed apportioning among air carriers based
on their share of market or other appropriate means. However, the 107th Congress
did not act on that proposal, and this remains an open issue.

A Key Question Is the Amount of Airport Funds That Should Be Used for
Security. In FY 2002, airports used an unprecedented amount of AIP funds for
security-related projects. In the past 10 years, only about 1.5 percent of AIP funds
were used for security, while 17 percent of AIP funds (or over $561 million) were
spent on security-related projects in FY 2002. Despite this increase, FAA was
able to fund safety, security, and capacity-related projects in FY 2002 largely
because of a record carryover in AIP funds from previous years. However, it is
evident that if the level of AIP funds committed to security continues, there will be
trade-offs in other airport programs.

A major issue on the horizon for airports is funding the next phase of EDS
integration. Thus far, nearly all EDS equipment has been lobby-installed or
stand-alone. TSA’s planned next step (integrating the EDS equipment into airport
baggage systems) is by far the most costly aspect of full implementation. The task
will not be to simply move the machines from lobbies to baggage handling
facilities but will require major facility modifications. For example, modifications
needed to place EDS equipment in-line at Boston’s Logan International Airport
are estimated at $146 million. Dallas/Fort Worth International estimates that
placing EDS in-line will cost nearly $193 million.

A key question is who will pay for those costs. AIP funds as well as passenger
facility charges are eligible sources for funding this work. However, using those
funds for security could have implications on long-term capacity projects (such as
building new runways). While the current AIP has provided some funding in the
past for aviation security, we urge caution in tapping this program until we have a
firm handle on airport safety and capacity requirements.

We will also remember the conditions of the summer of 2000—with its delays,
cancellations, and near system gridlock. We need to make sure capacity issues are
addressed now, while there is still time to avoid a repeat of the summer of 2000.



                                         16
The most likely option for meeting TSA’s financial requirements over and above
the existing revenues are for the General Fund to continue to pay a large portion of
security costs, along with strong contract oversight and cost controls. While we
do not see much of a dispute that aviation security is a matter of national security,
Congress will ultimately have to make a decision about how these costs will be
paid for and the proper mix between airlines, airports, passengers, and the General
Fund. I should also underscore, Mr. Chairman, that while the debate today is on
aviation security, you will also face these same questions regarding other modes of
transportation—rail, transit, trucking, pipelines, and maritime.

That concludes my statement Mr. Chairman. I would be pleased to address any
questions you or other members of the Subcommittee might have.




                                         17
